                                                              UNITED STATES DEPARTMENT OF COMMERCE
                                                              The Inspector General
                                                              W ashington, D.C. 20230



December 17, 2012


The Honorable Walter B. Jones
U.S. House of Representatives
Washington, DC 205 15-3303

Dear Congressman Jones:

This responds to your letter of October 15, 2010, in which you requested that we exam ine issues
related to the Nationa l Oceanic and Atmospheric Administration (NOAA), National Marine
Fisheries Service' s (NM FS) response to the January 22, 2006, discovery of a dead ri ght whale
calf off the coast of Jacksonville, Florida. Upon this discovery, the carcass was towed ashore and
necropsied (autopsied) the next day by a specialized large whale necropsy team . T he necropsy
team ruled the calfs cause of death " [o ]pen," but determined that, "given the apparent pre­
mortem shark and net entanglement damage to the peduncle (tail), in the absence of any other
significant information, the most parsimonious hypothesis is that these injuries were sufficiently
serious to initiate the demi se of the case."

Despite this statement' s ambiguity, based on NMFS ' conclusion that entanglement in gillnet gear
had been a factor contributing to mortality, NMFS exercised its regu latory authori ty under the
Marine Mammal Protection Act (MMP A) and the Endangered Species Act (ESA) to fi rst issue a
temporary rule, followed by an emergency rul e, and ul timately a fi nal ru le, severely restricting
the activities of fishermen using small mesh gillnets to target whiting as part of the Southeast
Atlantic gill net fishery. You raised concerns that NMFS' implementation of these rules and its
associated processes were not transparent and requested that we conduct a thorough review.

Pursuant to your request, we conducted an inquiry to determine the fo llowing:

    1. 	 Whether NMFS erred in enacting the temporary, emergency, and final rules under the
         MMP A and the ESA.

   2. 	 Whether NMFS or the Department of Commerce's Offi ce of General Counsel (OGC)
        mismanaged a January 23, 2007, Freedom of Information Act (FOIA) request and the
        subsequent March 2 1, 2008, appeal related to the calf mortality from representatives of
        the whiting component of the Southeast Atlantic gill net fi shery by:

       (a) Failing to meet FOIA' s 20 business day response period requirement;

       (b) Wrongly changing the FOIA requesters' classifi cation from " other" to "commercial" ;
           or

       (c) Wrongly withho lding information from the FO IA requesters.
                                                                                                     2



   3. 	 Whether NMFS' Southeast Regional Office (SERO) improperly communicated
        information related to the calf mortality to the Humane Society of the United States
        (HSUS) before this information was publicly released in the temporary rule.

In the course of our inquiry, we examined the February 16,2006, temporary rule, the November
15, 2006, emergency and proposed final rules, and the June 25, 2007, final rule, along with their
corresponding Environmental Assessments (EAs). We also reviewed the March 7, 2006, final
necropsy report; scientific journal articles on large whale (including right whale) entanglements,
serious injuries, and mortalities; and technical memoranda documenting the April 1997 and
September 2007 Serious Injury Workshops held by NMFS to develop nationally consistent
guidelines for differentiating serious and non-serious injuries of marine mammals.

Furthermore, we examined information related to NMFS' and OGC's respective processing of a
January 23, 2007, FOIA request and subsequent March 21, 2008, appeal, submitted by
representatives of the whiting component of the Southeast Atlantic gillnet fishery, and the
documents which were ultimately withheld from these FOIA requesters, including those related
to NMFS' Office of Law Enforcement's (OLE) investigation into allegations that an illegal
fishing operation caused the right whale calf mortality. We also reviewed correspondence related
to the calfmortality exchanged between NMFS officials, necropsy team members, and other
scientists, and received by NMFS from HSUS and the Atlantic Scientific Review Group
(ASRG), which is one of three independent regional scientific review groups established by the
Secretary of Commerce "in consultation with" environmental and fishery groups (among others)
to advise NMFS and the U.S. Fish and Wildlife Service (FWS) on the status of marine mammal
stocks, in accordance with the MMP A. Finally, we interviewed representatives of the whiting
component of the Southeast Atlantic gillnet fishery, the necropsy team lead, and various NMFS
officials, including SERO's Regional Administrator and Assistant Regional Administrator,
NMFS' Northeast Regional Office's (NERO) former Regional Administrator, and the Acting
Director ofNMFS' Office of Protected Resources (OPR).

Our results, including recommendations, are summarized below and detailed in the enclosure. By
copy of this correspondence, we are transmitting our findings and recommendations to the Under
Secretary of Commerce for Oceans and Atmosphere and NOAA Administrator, as well as the
Department's General Counsel, requesting a response within 60 days as prescribed by
Department Administrative Order 207-10.

Summary of Results

1. NMFS exercised its broad authority under the MMPA and the ESA to enact the temporary,
emergency, andfinal rules restricting gillnet fishing in the Southeast U.S. Restricted Area
during right whale calving periods. North Atlantic right whales are protected under both the
MMPA and the ESA. As such, NMFS relied on its authority under the Atlantic Large Whale
Take Reduction Plan (ALWTRP) regulations, implemented in accordance with the MMP A, to
enact the February 16, 2006, temporary rule and the June 25, 2007, final rule; and under the ESA
to enact the November 15, 2006, emergency rule.
                                                                                                 3


2. NMFS and OGC took nearly three years to process a January 23, 2007, FOIA request and
subsequent March 21, 2008, appeal related to the right whale rulemaking process. NMFS
failed to meet FOIA's 20 business day response period requirement by six weeks, while the
Department's OGC responded to the associated appeal23 months late. We recommend that both
offices streamline and coordinate their FOIA response processes so that they are better able to
meet these statutory deadlines, and that they contemporaneously advise FOIA requesters when
they cannot meet these deadlines.

Furthermore, after the FOIA requesters asked for a fee waiver, NMFS changed their
classification from "other" to "commercial," raising concerns that NMFS sought to penalize the
requesters for seeking the waiver. Although OIG did not find evidence to suggest this action was
improper, or that it adversely impacted the requesters in this case, we recommend that NMFS
ensure it properly categorizes FOIA requesters in accordance with FOIA at the outset when it
determines that FOIA fees will be charged to avoid the appearance of impropriety.

Finally, we found that OGC could not determine in the course of the appeal process whether
NMFS wrongly withheld records from the FOIA requesters. The OGC attorney who coordinated
the FOlA appeal said OGC could not ascertain from the records provided to OGC during the
appeal process how NMFS applied particular FOIA exemptions to withhold entire records.
While neither FOIA nor the Department's FOIA regulations require that this information be
provided to OGC, the OGC attorney said that not doing so is a problem because it slows down
the appeal process. The Chief ofOGC's General Law Division reported that OGC attorneys are
working with NOAA's FOIA Coordinator and various NMFS FOIA personnel to improve this
and other shortcomings OGC has observed in NMFS' processing ofFOIA requests.

Accordingly, we recommend that OGC and NOAA expeditiously correct the deficiencies in their
respective FOIA processes.

3. NMFS lacked protocols governing information sharing related to the right whale necropsy.
In a letter dated January 30, 2006, HSUS urged NMFS to close gillnet fisheries in the Southeast
U.S. Restricted Area immediately, indicating that HSUS had been made privy to the preliminary
necropsy results. OIG did not find that SERO officials communicated with HSUS concerning the
necropsy findings. The necropsy team lead (a NOAA grantee) told OIG that it was possible that
he conveyed this information to HSUS, and that he was unaware of any confidentiality provision
restricting him from doing so.

Accordingly, we recommend that NMFS establish protocols to safeguard the integrity of such
information in the future so as to ensure full compliance with NOAA's Information Quality (IQ)
Guidelines and the Federal Information Quality Act (IQA) to achieve proper and equitable
dissemination of information to all affected parties, including commercial interests and non­
governmental organizations.
                                                                                               4


If I can answer any questions or be of further assistance, please feel free to contact me or
Rick Beitel, Principal Assistant Inspector General for Investigations and Whistleblower
Protection, at 202-482-2558.

Sincerely,


   ~·3~
Todd J. Zinser

Enclosure

cc: 	   Dr. Jane Lubchenco, Under Secretary of Commerce
         for Oceans and Atmosphere and NOAA Administrator

        Cameron Kerry, General Counsel, U.S. Department of Commerce
Enclosure



      Results of Inquiry Responding to Congressman Jones' October 15, 20 I 0, Request


Background

Notional Morine Fisheries Service

The National Marine Fisheries Service (NMFS) is a part of the Department of Commerce's
National Oceanic and Atmospheric Administration (NOAA). It is the lead federal agency
responsible for the stewardship of the nation's living marine resources and their habitat, within
the United States' Exclusive Economic Zone (water three to 200 miles offshore). NMFS'
Deputy Assistant Administrator for Regulatory Programs oversees the operation of seven
divisions: Protected Resources, Sustainable Fisheries, Habitat Conservation, Science &
Technology, Management & Budget, Seafood Inspection, and Law Enforcement. The Office of
Protected Resources (OPR) works to conserve, protect, and recover endangered marine life,
including northern right whales, under the Endangered Species Act (ESA) and the Marine
Mammal Protection Act (MMPA), in conjunction with six NOAA Fisheries Regions and Science
Centers (Alaska, Northwest, Southwest, Northeast, Southeast, and Pacific Islands). 1

The North Atlantic right whale (E.ubalaena glacio/is) is a large baleen whale that occurs in coastal
and near-shore waters off the eastern United States and Canada. Its population is estimated at
300-400 individuals, making it one of the most critically endangered large whale populations in
the world. Historically, right whale populations were depleted by commercial whaling; more
recently, however, vessel collisions and entanglement in fishing gear have contributed to their
lack of recovery. It has been estimated that 71.9 percent of North Atlantic right whales have
become entangled at least once in their lives, and, as of 2005, there appeared to be an
increasing trend in the annual rate of entanglement? The North Atlantic right whale is
designated as an endangered species under the ESA and listed as depleted under the MMPA.

Considerable attention has been focused on the North Atlantic right whale in recent years, and
efforts to protect it have increased significantly. As required by Section 4(f) of the ESA, 16
U.S.C. § 1533(f), NMFS released its first recovery plan for the North Atlantic Right Whale in
1991, which was revised and updated in 200 I and 2005. The 2005 recovery plan charged NMFS
with improving the survival rate of North Atlantic right whales by "reduc[ing] the frequency of
collisions with ships and fishing gear entanglements." 3 In 1994, NMFS also designated three
areas in U.S. waters used annually by North Atlantic right whales as "critical habitat" (defined in
Section 3(5)(A) of the ESA, 16 U.S.C. § 1532(5)(A)): the Great South Channel; Cape Cod and

 1
     Information obtained from NMFS' website: http://www.nmfs.noaa.goy/aboutus/aboutus.html.
 1
     Johnson, Amanda, Glenn Salvador, John Kenney, Jooke Robbins, Scott Kraus, Scott Landry, and Phil Clapham,
     2005: Fishing Gear Involved in Entanglements of Right and Humpback Whales, Marine Mammal Science, 21 (4): 635­
     645.
 3
     National Marine Fisheries Service. 2005. Recovery Plan for the North Atlantic Right Whale (Eubalaena
     glada/is). National Marine Fisheries Service, Silver Spring, MD.
                                                                                                                            2


Massachusetts Bays; and the Southeastern U.S., which supports the entire North Atlantic right
whale population's calving females and their calves during the winter calving season. 4 Finally,
NMFS established the Atlantic Large Whale Take Reduction Team (ALWTRT) and Plan
(ALWTRP) pursuant to Section I 18 of the MMPA, 16 U.S.C. § 1387, to reduce incidental
mortality and serious injury of three species of large whales, including right whales, due to
interactions with specific known commercial fisheries. 5 The ALWTRP is implemented through
regulations codified at 50 C.F.R. § 229.32 ("the ALWTRP regulations").

Chronology of Events

On January 22, 2006, a North Atlantic right whale calfs carcass was found and reported off
Jacksonville Beach in Florida. The calf was towed ashore and necropsied by a specialized large
whale necropsy team, 6 which consisted of several federal and state government representatives,
and university and non-governmental organization marine mammal specialists. The necropsy
team's examination indicated straight-line, v-shaped, and diamond-shaped lesions around the
calfs tailstock, which appeared to be pre-mortem and caused by a fine-cutting edge such as
monofilament net found in gillnet fishing gear. The carcass also showed signs of shark predation
(damage inflicted before death) and scavenging (damage inflicted after death). While the
necropsy team could not identify an immediate cause for the calfs death (e.g., dehydration,
disease, drowning), the final necropsy report, released on March 7, 2006, reported that "given
the apparent pre-mortem shark and net entanglement damage to the peduncle (tail), in the
absence of any other significant information, the most parsimonious hypothesis is that these
injuries were sufficiently serious to initiate the demise of the case." 7

On February 16, 2006, based on the necropsy team's preliminary observations that gillnet
entanglement had been a factor contributing to the calf mortality, NMFS announced temporary
restrictions on gillnet fishing in the Southeastern U.S. critical habitat for northern right whales
(the "Southeast U.S. Restricted Area") through March 31, 2006, 8 in accordance with 50 C.F.R. §
229.32(g)( I). 9 NMFS then collected and analyzed additional information to determine the scope
 4
      Designated Critical Habitat; Northern Right Whale, 59 Fed. Reg. 28,793 Oune 3, 1994) (now codified at SO C.F.R. §
      226.203). The Southeastern U.S. critical habitat for northern right whales corresponded to the Southeast U.S.
      Restricted Area before the latter was expanded pursuant to NMFS' final rule.
 5
      Atlantic Large Whale Take Reduction Tearn Meeting, 61 Fed. Reg. 40,819 (Aug. 6, 1996); Taking of Marine
      Mammals Incidental to Commercial Fishing Operations; Atlantic Large Whale Take Reduction Plan Regulations, 62 Fed.
      Reg. 39, 157 Ouly 22, 1997).
 6	
      The necropsy team lead, a Senior Research Specialist at Woods Hole Oceanographic Institution, told us that
      at the time of the right whale calf mortality, he was supported by a research grant from NMFS' Northeast
      Fisheries Science Center (NEFSC), which had been involved in a right whale research initiative for some time,
      so that money was made available to him to perform the necropsy. The necropsy team lead said that he and a
      Marine Mammal Biologist at the Virginia Aquarium and Marine Science Center selected the remaining
      necropsy team members from a regional network of individuals with sufficient experience to perform the task
      at hand.
 7
      Right Whale Necropsy Report EgNEFL0603, March 7, 2006 (available at
      http://www.nmfs.noaa.gov/pr/pdfs/health/rightwhale necropsy.pdfi.
8
      Taking ofMarine Mammals Incidental to Commercial Fishing Operations; Atlantic Large Whale Take Reduction Plan
      (ALWTRP) and Endangered Species Conservation; Restriction of Fishing Activities, 71 Fed. Reg. 8,223 (Feb. 16, 2006).
9	
      All citations to SO C.F.R. § 229.32(g)( I) in this Enclosure refer to the version that was in effect at the time of
      the implementation of the temporary and emergency rules, before it was amended by the final rule. At the
      time, it read as follows: "Entanglements in critical habitat. If a serious injury or mortality of a right whale
                                                                                                                          3


of permanent protective measures, as required by the ALWTRP regulations. As part of this
process, on April I 1-12, 2006, N MFS convened a meeting of the ALWTRT's Mid-Atlantic/
Southeast Subgroup to seek input regarding future management options to protect right whales
from additional serious injury and mortality from gillnetting. 10

On November 15, 2006, NMFS published a proposed rule and request for comments in the
Federal Register, consistent with 50 C.F.R. § 229.32(g)(2), in which it proposed to revise the
ALWTRP regulations by expanding the Southeast U.S. Restricted Area and prohibiting gillnet
fishing or gillnet possession during annual restricted periods associated with the right whale
calving season. 11 At the same time, NMFS enacted an emergency rule under Section 4(b)(7) of
the Endangered Species Act (ESA), 16 U.S.C. § 1533(b)(7), effective immediately, to prevent
additional takes of right whales until a final, permanent rule could be implemented. 12

Between November 15, 2006, and january 31, 2007, NMFS received (and considered) a total of
4,571 comments on the proposed rule from fishery management agencies and commissions of
southeastern U.S. states, the Marine Mammal Commission (MMC), environmental
organizations, commercial fishing organizations, commercial and recreational fishermen, and
interested members of the public. The final rule, enacted on June 25, 2007, revised the
ALWTRP in a manner consistent with the proposed rule, with some exceptions. 13 Among
other things, the final rule expanded the Southeast U.S. Restricted Area to include waters off
South Carolina and divided it at 29°00' N. lat., into Southeast U.S. Restricted Areas Nand S.
The final rule also amended the restricted period for the two areas to be from November IS
through April 15, and December I through March 31, respectively. Furthermore, the final rule
prohibited gillnet fishing in the Southeast U.S. Restricted Area N during the restricted period.

The whiting component of the Southeast Atlantic gillnet fishery was the most active fishery in
the Southeast U.S. Restricted Area N during the restricted period prior to the implementation
of the final rule and was thus most affected by it. In its November 15, 2006, proposed final rule,
NMFS estimated the combined loss of king whiting landings from the northern and southern
zones during the respective restricted periods at 360,859 pounds (valued at $281, 142), which
represented at least 70 percent of whiting landed annually in the Southeast U.S. Restricted
Area. 14 As such, following the january 22, 2006, right whale calf mortality, representatives of the

        occurs in the Cape Cod Bay critical habitat from January I through May 15, in the Great South Channel
        Restricted Area from April I through June 30, or in the Southeast U.S. Restricted Area from November 15
        through March 3 I as a result of an entanglement by lobster or gillnet gear allowed to be used in those areas
        and times, the Assistant Administrator shall close that area to that gear type for the rest of that time period
        and for that same time period in each subsequent year, unless the Assistant Administrator revises the
        restricted period in accordance with paragraph (g)(2) of this section or unless other measures are
        implemented under paragraph (g)(2)."
 10 	
        At the time, members of the ALWTRT's Mid-AdantidSoutheast Subgroup included fishery representatives of
        the gillnetting industry active in the area from North Carolina to Florida, various NMFS officials, along with
        representatives of other federal and state agencies, environmental groups, and Fishery Management Councils.
 11 	
        Taking of Marine Mammals Incidental to Commercial Fishing Operations; Atlantic Large Whale Take Reduction Plan,
        71 Fed. Reg. 66,482 (Nov. 15, 2006).
 12
        Right Whale Protection; Southeast U.S. Gil/net Closure, 71 Fed. Reg. 66,469 (Nov. IS, 2006).
 13 	
        Taking of Marine Mammals Incidental to Commercial Fishing Operations; Atlantic Large Whale Take Reduction Plan,
        72 Fed. Reg. 34,632 Qune 25, 2007).
 14 	
        71 Fed. Reg. 66,469.
                                                                                                 4


whiting component of the Southeast Atlantic gillnet fishery raised questions as to whether
NMFS erred in enacting the temporary, emergency, and final rules under the MMPA and the
ESA. They also alleged that NMFS and the Department's Office of General Counsel (OGC)
failed to comply with the Freedom of Information Act (FOIA) in the course of responding to
their January 23, 2007, FOIA request for information related to the right whale calf mortality
and the subsequent March 21, 2008, appeal. Finally, they espoused that NMFS' Southeast
Regional Office (SERO) improperly communicated with the Humane Society of the United
States (HSUS) regarding the preliminary necropsy results before these results were publicly
released via the temporary rule.

Figure I. Southeast U.S. Restricted Area as of June 25, 2007




                                         &"'":::!   Southeast U.S. Restricted Area North
                                                      Restricted Period: Nov 1 5 - Apr 1 5
                                                            29 .. N   latitude
                                         ~          Southeast U.S. Restricted Area South
                                                      Restricted Period: Dec 1 -Mar 31




                                         C:=J 	      Southeast U.S. Monitoring Area
                                                     Restricted Period: Dec 1 - Mar 31
                                 -·­   20"40.S'N    oo·vv




Source: OIG Adaptation of NMFS Figure.


Methodology

On October 15, 20 I0, we received a letter from Congressman Walter Jones, requesting that
we investigate issues brought forth by members of the Garden State Seafood Association
(GSSA) and the North Carolina Fishing Association (NCFA). Accordingly, we conducted an
inquiry to determine:
                                                                                                 s


    I. 	 Whether NMFS erred in enacting the temporary, emergency, and final rules under the
         MMPA and the ESA.

   2. 	 Whether NMFS or the Department's OGC mismanaged a January 23, 2007, FOIA
        request and the subsequent March 21 , 2008, appeal related to the calf mortality from
        representatives of the whiting component of the Southeast Atlantic gillnet fishery by:

       (a) 	 Failing to meet FOIA's 20 business day response period requirement;

       (b) Wrongly changing the FOIA requesters' classification from "other" to "commercial";
           or

       (c) Wrongly withholding information from the FOIA requesters.

   3. 	 Whether SERO improperly communicated information related to the calf mortality to
        the HSUS before this information was publicly released in the temporary rule.

In the course of our inquiry, we examined the February 16, 2006, temporary rule, the
November 15, 2006, emergency and proposed final rules, and the June 25, 2007, final rule,
along with their corresponding Environmental Assessments (EAs). We also reviewed the March
7, 2006, final necropsy report; scientific journal articles on large whale (including right whale)
entanglements, serious injuries, and mortalities; and technical memoranda documenting the
April 1997 and September 2007 Serious Injury Workshops held by NMFS to develop nationally
consistent guidelines for differentiating serious and non-serious injuries of marine mammals.

Furthermore, we examined information related to NMFS' and OGC's respective processing of
a January 23, 2007, FOIA request and subsequent March 21, 2008, appeal, submitted by
representatives of the whiting component of the Southeast Atlantic gillnet fishery, and the
documents which were ultimately withheld from these FOIA requesters, including those related
to NMFS' Office of Law Enforcement's (OLE) investigation into allegations that an illegal fishing
operation caused the right whale calf mortality.

We also reviewed correspondence related to the calf mortality exchanged between NMFS
officials, necropsy team members, and other scientists, and received by NMFS from HSUS and
the Atlantic Scientific Review Group (ASRG). Finally, we interviewed members of the GSSA and
NCFA, the necropsy team lead, and various NMFS officials, including SERO's Regional
Administrator and Assistant Regional Administrator, NMFS' Northeast Regional Office's
(NERO) former Regional Administrator, and the Acting Director of NMFS' OPR.
                                                                                                                  6



Details of Issues Examined

I. 	 Whether NMFS erred in enacting the temporary, emergency, and final rules under
     the MMPA and the ESA.

North Atlantic right whales are protected under both the MMPA and the ESA.
NMFS invoked its broad authority under both laws to enact the temporary,
emergency, and final rules restricting gillnet fishing in the Southeast U.S.
Restricted Area.

At the time of the right whale calf mortality, the ALWTRP regulations, enacted pursuant to the
MMPA, provided that if a serious injury or mortality of a right whale occurred in the Southeast
U.S. Restricted Area between November IS through March 31 as a result of entanglement by
gillnet gear allowed to be used in that area and time, NMFS' Assistant Administrator shall close
that area to that gear type for the rest of that time period and for that same time period in
each subsequent year. The ALWTRP regulations also provided that under certain conditions
(e.g., if right whales were remaining in the area longer than expected, or if the boundaries of
the area were no longer appropriate), the Assistant Administrator could implement other
measures to protect right whales from additional serious injury or mortality from gillnetting. 15

NMFS examined the necropsy team's findings 16 regarding the calfs death, aerial images of the
calf and its mother supplied by the New England Aquarium, and other data related to gillnet
fishing activities in the Southeast U.S. Restricted Area, and determined that the requirements
put forth by the ALWTRP regulations had been satisfied, thus enabling NMFS to implement the
February 16, 2006, temporary rule. For example, NMFS concluded that the necropsy team's
finding that entanglement in gillnet gear had been a factor contributing to the calf mortality
established that the calf had indeed sustained a "serious injury" (defined in 50 C.F.R. § 216.3 as
"any injury that will likely result in mortality") as a result of an entanglement. Similarly, NMFS
determined that the calf had become entangled and died in the Southeast U.S. Restricted Area
because all of the observations of the calf by the New England Aquarium in the weeks
preceding its death occurred in the Southeast U.S. Restricted Area, and its carcass was also
found in the Southeast U.S. Restricted Area. Finally, NMFS found that the calf was entangled in
legal gillnet gear because NMFS could not conclusively determine the mesh size of the culprit
net, and various mesh sizes were allowed to be used in the Southeast U.S. Restricted Area at
the time. Furthermore, NMFS' Office of Law Enforcement investigated but was unable to
substantiate allegations that an illegal fishing operation caused the calfs entanglement.

After the expiry of the temporary rule, NMFS sought, pursuant to the ALWTRP regulations, to
implement permanent measures to protect right whales from additional serious injury and
mortality from gillnetting. According to SERO's Assistant Regional Administrator, NOAA's
Office of General Counsel (GC) did not clear NMFS's proposed final rule in time for the final

 IS 	   50 C.F.R. § 229.32(g) (2006).
 16
        The final necropsy report was not issued until March 7, 2006. However, the necropsy team lead told us that
        the necropsy team had conveyed its preliminary observations regarding the right whale calf mortality to NMFS
        as early as January 23, 2006, and had continued to update NMFS on its findings throughout the necropsy
        process.
                                                                                                                        7


rule to take effect before the start of the next right whale calving season on November I5,
2006. As such, on this date, NMFS published the proposed final rule and request for comments
in the Federal Register, which amended the restricted period and expanded the Southeast U.S.
Restricted Area, reportedly to better correspond with right whale calving patterns. 17 At the
same time, NMFS enacted an emergency rule, valid for up to 240 days, under Section 4(b)(7) of
the ESA to prevent additional takes of right whales until the final rule could be implemented. 18
NMFS was not required to provide prior notice and an opportunity for public comment on the
emergency rule because it was issued in response to an "emergency posing a significant risk to
the well-being of any species of fish and wildlife or plants." Also, NMFS published detailed
reasons as to why the emergency rule was necessary in the Federal Register and gave actual
notice to fisheries officials in Florida, Georgia, and South Carolina, as required by the ESA. 19

2. 	 Whether NMFS and/or the Department's OGC mismanaged a January 23, 2007, FOIA ·
     request and the subsequent March 21, 2008, appeal related to the right whale calf
     mortality submitted by representatives of the whiting component of the Southeast
     Atlantic gillnet fishery by:

      (a) Failing to meet FOIA's 20 business day response period requirement.

We found that NMFS failed to meet FOIA's 20 business day response period
requirement by six weeks, while OGC responded to the associated appeal 23
months late. In the interest of transparency and responsiveness to the public, we
recommend that NMFS and OGC streamline their FOIA response processes so
that they are better able to meet FOIA's 20-day deadlines whenever possible, and
contemporaneously advise FOIA requesters when they cannot meet these
deadlines.

FOIA extends to any person a legally-enforceable right to obtain access to certain federal
agency records. The Act defines agency records subject to disclosure, outlines mandatory
disclosure procedures, and establishes nine specific exemptions which permit an agency to
                                     °
withhold certain documents. 2 FOIA also provides that upon receiving a reasonably specific
request for records that complies with the agency's regulations stating the time, place, fees (if
any), 21 and procedures to be followed, an agency must "promptly" make such records available
to the requester. 22 The agency has 20 business days from the date on which it received a
proper FOIA request to determine whether it will comply with the request and/or whether it
 17
      Taking of Marine Mammals Incidental to Commercial Fishing Operations; Atlantic Large Whale Take Reduction Plan,
      71 Fed. Reg. 66,482 (Nov. 15, 2006). 

 18
      Right Whale Protection; Southeast U.S. Gillnet Closure, 71 Fed. Reg. 66,469 (Nov. 15, 2006). 

 19
       16 u.s.c. § 1533(4)(b)(7). 

 10
      5 u.s.c. § 552.
 11
      According to 5 U.S.C. § 552(a)(4)(A)(ii), federal agencies must charge for document search, duplication, and
      review when records are requested for commercial use; for document duplication only when records are
      requested by educational or noncommercial scientific institutions or by the news media; and for document
      search and duplication for all other requests. According to 5 U.S.C. § 552(a)(4)(A)(iii), documents must be
      furnished at no charge or at a reduced charge if disclosure of the information is in the public interest because
      it is likely to contribute significantly to public understanding of government operations and activities and is not
      primarily in the commercial interest of the requester.
 11
      5 U.S.C. § 552(a)(3).
                                                                                                                8


will withhold any records under a FOIA exemption, and to notify the requester of its decision.
If the FOIA requester appeals the agency's decision, the agency must make a determination on
the appeal within 20 business days after its receipt as well. 23

NMFS received the January 23, 2007, FOIA request on March 16, 2007. 24 NMFS advised the
FOIA requesters of the required fee on April 5, 2007, approximately 13 business days after
receiving the FOIA request. Pursuant to the Department's FOIA regulations, the 20-day
response period would have been tolled until July 3, 2007, when NMFS received the fee, at
which point the response period would have resumed, leaving NMFS seven business days (until
July 13, 2007) to respond to the FOIA request. However, NMFS sent its first interim response
to the FOIA requesters on August 30, 2007, approximately six weeks after it was due. Upon
receiving NMFS' final response to their FOIA request on February 22, 2008, the FOIA
requesters appealed to the Department's Assistant General Counsel for Administration to
require NMFS to turn over the remaining documents to them. The Department's OGC
received the FOIA requesters' appeal on March 24, 2008, and acknowledged receipt of the
appeal in a formal letter to·the FOIA requesters, dated April 14, 2008. However, OGC made
no determination as to whether to release any information to the FOIA requesters until March
 15, 20 I0, approximately 23 months after the expiration of its 20 business day response period,
when OGC released hundreds of additional pages and redacted or withheld many more
pursuant to various FOIA exemptions.

We questioned NMFS and OGC officials regarding their failure to adhere to FOIA's 20 business
day response period requirement. SERO's FOIA Coordinator told us that large volume
requests take longer to process because of the time it takes for NMFS and, often, as in the. case
at hand, one or more NOAA GC attorneys, to review documents to determine whether they
should be exempted from release under FOIA. We reviewed SERO's FOIA processing records
and found that the NMFS officials who were asked to search for and forward responsive
documents to SERO's FOIA Coordinator apparently did so in a relatively timely manner,
missing the July 13, 2007, deadline by just a few days. The delay in the documents' reaching the
FOIA requesters appeared to be the result of how long they remained in review with NOAA
GC attorneys. We also found that it took NMFS approximately one month after the FOIA
requesters filed their appeal to forward to OGC the responsive documents it had redacted
and/or withheld. Here, similar to the delay in the NMFS' initial response, the 23-month delay in
making an appeal determination appeared to be primarily the result of how long the records
remained in review with OGC attorneys. Given that federal agencies are legally obligated to
publicly disclose records in a timely manner under FOIA, and in the interest of transparency,
we recommend that both NMFS and OGC streamline their FOIA response processes so that
they are better able to meet FOIA's 20-day deadlines whenever possible, and that they
contemporaneously advise FOIA requesters when they cannot meet these deadlines, so as to
manage the requesters' expectations.


 13
      5 U.S.C. § 552(a)(6)(A).
 14
      SERO's FOIA Coordinator told us that this FOIA request. while dated January 23, 2007, was not received until
      March 16, 2007, because the FOIA requesters attached it to a "public comment document," submitted as part
      of the public comment process in response to the November 15, 2006, proposed rule and request for
      comments.
                                                                                                                    9


      (b) Wrongly changing the FOIA requesters' classification from "other" to 

          "commercial." 


We did not find evidence to suggest that this action was improper or that it
adversely impacted the requesters in this case. However, to avoid the appearance
of impropriety, we recommend that NMFS ensure that it properly categorizes
FOIA requesters in accordance with the Act at the outset when it determines that
FOIA fees will be charged.

After receiving the January 23, 2007, FOIA request, NMFS notified the FOIA requesters that
their request would be processed under the "other requesters" fee category, and that they had
30 days to pay $3,899.80 in search and duplication fees (excluding the cost of the first two
hours of search and I00 pages), or else their request would be administratively closed. The
FOIA requesters submitted a fee waiver request to NMFS on May 3, 2007, which NMFS denied
on June 12, 2007, on grounds that the FOIA request was primarily in the "commercial interest"
of the requesters, and disclosure was unlikely to contribute significantly to public understanding
of NMFS' activities related to the right whale mortality and subsequent regulatory closures. 25 At
that time, NMFS also recategorized the FOIA requesters under the "commercial requester" fee
category, thus requiring them to pay document review fees, in addition to the document search
and duplication fees they were required to pay as "other requesters." However, the new total
fee NMFS quoted the FOIA requesters ($2,229.16) was less than the original fee ($3,899.80)
because NMFS determined that some of the previously identified documents were publicly
available, some were non-responsive, and some were duplicates (from more than one office).

The Department's FOIA regulations define a "commercial use request" as one "from or on
behalf of a person who seeks information for a use or purpose that furthers his or her
commercial, trade, or profit interests." 26 Here, the FOIA requesters sought information
regarding whether NMFS' closure rulemakings were reasonable and justified to further a
commercial interest in fishing in the Southeast U.S. Restricted Area during the restricted
period. However, NMFS did not designate the FOIA requesters as commercial requesters until
after the receipt of the requesters' May 3, 2007, fee waiver request, which gives the appearance
that NMFS sought to penalize the FOIA requesters for requesting a fee waiver. While this
recategorization appears appropriate, we recommend that NMFS ensure that it properly
categorizes FOIA requesters in accordance with the Act at the outset when it determines that
FOIA fees will be charged to avoid the appearance of impropriety.

      (c) Wrongly withholding information from the FOIA requesters.

15
      The Department of Justice (DOJ) has outlined six factors to guide federal agencies in adjudging whether a fee
      waiver must be granted, which the Department has incorporated into its FOIA regulations. "OIP Guidance:
      New Fee Waiver Policy Guidance," FOIA Update, Vol. VIII, No. I ( 1987}, at 3-1 0; 15 C.F.R. § 4.11 (k). NMFS
      applied these factors to conclude that disclosure of the requested information would further the FOIA
      requesters' commercial interest in continued fishing in the designated areas closed by the rule. NMFS also said
      that there was no indication that there would be "an active, broad public dissemination of the records," and
      that the public had already been informed of the requested information via two Federal Register notices. NMFS
      thus determined that the information would not contribute "significantly" to public understanding.
 26
      15C.F.R.§4.11(b)(l).
                                                                                                                   10


We found that OGC could not determine in the course of the appeal process
whet~er NMFS wrongly withheld records from the FOIA requesters. The OGC
attorney who coordinated the FOIA appeal said OGC could not ascertain from the
records provided to OGC during the appeal process how NMFS applied particular
FOIA exemptions to withhold entire records. We understand that OGC and
NOAA are currently working together to improve the processing of NMFS FOIA
requests and appeals and urge them to expedite completion.

In its August 30, 2007, and October 9, 2007, interim responses, as well as its February 22, 2008,
final response to the January 23, 2007, FOIA request submitted by representatives of the
whiting component of the Southeast Atlantic gillnet fishery, NMFS provided details as to which
records and portions thereof it had withheld under various FOIA exemptions, as required by
FOIA and the Department's FOIA regulations. When partially releasing a record, for example,
NMFS indicated the amount of information deleted and the exemption under which the
deletion was made at the place in the record where the deletion was made. 27 Similarly, NMFS
provided the FOIA requesters, in letter format, an estimate of the volume of records withheld
in their entirety, as well as justification for the exemption(s) used to withhold them. 28

However, according to the OGC attorney who coordinated the appeal, NMFS' submission of
records to OGC for review during the appeal process was not accompanied by information
regarding how NMFS applied particular FOIA exemptions (e.g., which specific privilege it applied
to invoke FOIA Exemption 5) 29 to withhold entire records. As such, the OGC attorney told us
OGC could not determine whether NMFS wrongly withheld entire records from the FOIA
requesters. 30 While neither FOIA nor the Department's FOIA regulations require that this
information be provided to OGC, the OGC attorney said that not doing so is a problem
because it slows down the appeal process. She said that if OGC "could identify an agency's

17 	
     FOIA requires agencies, when partially releasing a record in response to a FOIA request, to indicate the
     "amount of information deleted, and the exemption under which the deletion is made... on the released
     portion of the record, unless including that indication would harm an interest protected by the exemption." In
     addition, "if technically feasible," this redaction and marking should be "made at the place in the record where
     such deletion is made." 5 U.S.C. § 552(b). The Department's FOIA regulations contain nearly identical
     requirements, albeit not verbatim. 15 C.F.R. § 4.7(a).
18 	
     When withholding records in full, rather than in part, FOIA and the Department's FOIA regulations require
     Department bureaus and operating units to provide, in a letter to the requester: the reasons for the
     withholding, including applicable exemptions, and an estimate (based on a reasonable effort) of the volume of
     records being withheld (e.g., number of pages, records, or other form of estimation), unless it would harm an
     interest protected by the cited FOIA exemption. 5 U.S.C. § 552(a)(6)(F); 15 C.F.R. § 4.7(b).
29 	
     FOIA Exemption 5 permits the withholding of "inter-agency or intra-agency memoranda or letters which 

     would not be available by law to a party other than an agency in litigation with the agency." Under this 

     exemption, agencies have withheld documents pursuant to several privileges normally available in the civil 

     discovery context, including the deliberative process (e.g., pre-decisional documents), attorney-client, and 

     attorney-work product privileges. 5 U.S.C. § 552(b)(5). 

30 	
     The OGC attorney could not recall whether NMFS' submission of records to OGC for review during the
     appeal process was accompanied by information regarding how NMFS applied particular FOIA exemptions to
     partially withhold records. However, based on our review of the partially withheld records NMFS submitted
     to OGC during the appeal process, which NMFS provided to us in the course of our investigation, we found
     that these partially withheld records were not accompanied by information regarding how NMFS applied
     particular FOIA exemptions to withhold portions thereof. This may explain why OGC could not determine
     whether NMFS wrongly partially withheld records from the FOIA requesters either.
                                                                                                                    If


rationale for withholding particular documents, we wouldn't have to go back to the agency with
as many questions, which would speed up our review process." OGC attorneys further
expressed that NMFS can be bureaucratic and defensive, making it more difficult and time­
consuming for OGC attorneys to obtain materials and/or information needed to process NMFS
FOIA appeals. Furthermore, according to the Chief of OGC's General law Division, about 75
percent of NOAA FOIA appeals, which account for around half of all FOIA appeals processed
by her office, involve NMFS.

The Chief of OGC's General Law Division informed us that in or about August 2011, OGC
attorneys paired with NOAA's FOIA Coordinator and several NMFS FOIA personnel to
address various problems that OGC had observed related to NMFS' processing of FOIA
requests, including NMFS' incorrect evaluation of fee waiver requests, improper withholding of
documents under discretionary FOIA exemptions (and incomplete labeling of these documents)
and inaccurate accounting of documents (i.e., telling the requester that more or less documents
were withheld than actually were). The Chief of OGC's General Law Division said that since
the implementation of this task force, she had observed fewer problems with NMFS' processing
of FOIA requests. She also advised that OGC sent a memorandum, dated April 16, 20 12, to the
Department's FOIA Officers detailing what documents should be provided to a FOIA Officer in
response to an initial FOIA request and to OGC in response to a FOIA appeal. In this
memorandum, OGC also implemented a new requirement that when forwarding documents to
OGC for review in the course of the FOIA appeal process, bureaus and operating units must
provide "a chart/table which includes a document number for each document, the total number
of pages of each document, a brief description of each document, and the exemption(s)
invoked." We recognize OGC's and NOAA's combined efforts to improve NMFS' processing
of FOIA requests and appeals. We recommend that OGC and NOAA expeditiously correct
the deficiencies in their respective FOIA processes.

3. 	 Whether SERO improperly communicated information related to the right whole calf
     mortality to HSUS before it was publicly released in the temporary rule.

We did not find evidence to suggest that NMFS improperly communicated
information related to the right whale calf mortality to HSUS. However, we
recommend that NMFS establish formal protocols to safeguard the integrity of
such information in the future so as to ensure full compliance with NOAA's
Information Quality (IQ) Guidelines and the Federal Information Quality Act
(IQA).

In the course of our investigation, we found a January 30, 2006, letter from HSUS, a non­
governmental animal protection organization, to NMFS, in which HSUS urged NMFS to close
gillnet fisheries in the Southeast U.S. Restricted Area immediately, indicating that HSUS had
been made privy to the preliminary necropsy results, which NMFS did not make available to the
public until the publication of the February 16, 2006, temporary rule. 31

 31 	
        In this letter, HSUS expressed that it would pursue legal action against NMFS unless it limited commercial
        fishing in the Southeast U.S. Restricted Area. The NMFS officials with whom we spoke told us that NMFS'
        decision to implement temporary, and later emergency and final, restrictions on gillnet fishing, was in no way
        affected by the prospect of litigation.
                                                                                                                        12




The NMFS officials with whom we spoke said they did not provide this information to HSUS.
One SERO fisheries biologist told us that right whale mortalities attract attention from various
groups of individuals, including scientists, conservationists, and media representatives, and
because their necropsies are not conducted in "controlled settings" (e.g., in the case at hand,
the initial phase was performed on the beach, and the remaining phases in the individual team
members' labs across the country), it is difficult to control the flow of information. The
necropsy team lead, a NOAA grantee, echoed her sentiment. He also said that he did not
remember speaking to anyone from HSUS, but added that there is no standard operating
procedure regarding the degree of confidentiality that is to be maintained in such situations. He
said that if he received a phone call from a member of HSUS prior to the completion of the
final necropsy report, he probably answered his or her questions based on information he had
at that point. While we did not find evidence to suggest that information related to the calfs
death was improperly used, modified or destroyed as a result of its having come into the hands
of HSUS, we recommend that NMFS establish protocols to safeguard the integrity of such
information in the future to ensure full compliance with NOAA's IQ Guidelines and the IQA.32




32 	
       The IQA. also known as the Data Quality Act. constitutes a directive from Congress to the Office of
       Management and Budget (OMB), requiring it to issue guidelines to federal agencies for ensuring and
       maximizing the quality, utility, integrity, and objectivity of information disseminated by such federal agencies.
       Consolidated Appropriations Act of 200 I, Pub. L. No. I06-SS4, app. C, § SIS, I 14 Stat. 2763, 2763A-IS3
       (2000) (codified at 44 U.S.C. § 3SI6 note). OMB's guidelines further required, in accordance with the IQA,
       that federal agencies implement their own information quality guidelines and establish an administrative
       mechanism for persons to seek and obtain correction of information maintained and disseminated by these
       agencies. See Guidelines for Ensuring and Maximizing the Quality, Objectivity, Utility, and Integrity of Information
       Disseminated by Federal Agendes, Final Guidelines; Republication, 67 Fed. Reg. 8,4S2 (Feb. 22, 2002). Among other
       things, NOAA's IQ Guidelines require that NOAA line offices protect the integrity of information - or
       adequately safeguard information from unauthorized access, such as may result in improper use, modification,
       or destruction of the information - prior to dissemination. See U.S. Dept. of Commerce, National Oceanic
       and Atmospheric Administration, Notional Oceanic and Atmospheric Administration Information Quality Guidelines
       (2002).
                                                                                                    13


                                                Appendix 


        Other Concerns Raised in Correspondence from North Carolina Fishing 

         Association (NFCA) and Garden State Seafood Association (GSSA) 


Issue I: The National Marine Fisheries Service's (NMFS) Southeast Regional Office (SERO) did not
consult with NMFS' Northeast Regional Office (NERO) regarding the February 16, 2006, temporary
rule. We did not find any law or policy requiring SERO to coordinate rule establishment with
NERO. The NMFS officials with whom we spoke acknowledged that NERO is the "lead"
regional office for Atlantic Large Whale Take Reduction Plan (ALWTRP) matters. However,
these officials differed in their opinions as to the extent of NERO's authority as the lead.

Issue 2: "NMFS took emergency action to temporarily close the Southeast U.S. Restricted Area to
fishing before the necropsy results were finalized."33 This statement is true, given that NMFS'
February 16, 2006, temporary rule, was implemented several weeks before the final necropsy
report was issued on March 7, 2006. However, NMFS was not obligated by law or policy to
wait until the necropsy results were finalized before issuing the temporary rule. NMFS acted in
accordance with the ALWTRP regulations by taking immediate action to protect right whales
from additional "takes" following an entanglement-related right whale serious injury or
mortality. The necropsy team lead also told us that the necropsy team had conveyed its
preliminary observations regarding the recent entanglement of the calf to NMFS as early as
January 24, 2006, and had updated NMFS on its findings throughout the necropsy process.

Issue 3: "No fishing gear was retrieved." This statement is true, but it has no bearing on the case
at hand. The necropsy team lead explained that it was "very common" for no entangling gear to
be found on large whale carcasses. The necropsy team lead told us that fishermen "routinely"
cut entangled animals out of fishing gear because "the presence of a particular gear type ...
would lead to enhanced evidence against that fishery as being the perpetrator."

Issue 4: "No cause of death... [was] determined." This statement is true, but it has no bearing on
the case at hand. The necropsy report listed the cause of death as, "[o]pen, but given the
apparent pre-mortem shark and net-entanglement damage to the peduncle (tail), in the absence
of any other significant information, the most parsimonious hypothesis is that these injuries
were sufficiently serious to initiate the demise of the case." NMFS concluded that the necropsy
report's characterization of the calfs entanglement-related wounds as "sufficiently serious" as
to "initiate" its death established that the calf had sustained a "serious injury" as a result of the
entanglement, thus enabling NMFS to implement the temporary rule.

Issue 5: The cause of death was thought to have been a "possible vessel strike." This statement is not
true, as the January 22, 2006, right whale calf mortality was not believed to be the result of a
vessel strike. We found that a January I0, 2006, right whale calf mortality (also off the coast of
Jacksonville, Florida) was determined to have been caused by a vessel strike, and that various
media outlets may have confused the two events, reporting, erroneously, that the necropsy


33
     The quotation marks reflect the exact language used by NMFCA and GSSA.
                                                                                                                   14


team responsible for the January 22, 2006, right whale calf mortality found that it was caused by
a vessel strike. One media outlet even misquoted a SERO fisheries biologist on this point.

Issue 6: The cause of death was thought to have been a "shark attack." We found that the necropsy
team considered, discussed, and ultimately discredited the theory that a shark attack alone
caused the calfs death. One whale biologist (not a member of the necropsy team) theorized
that the calfs injuries were caused solely by shark predation (damage inflicted before death) and
shark scavenging (damage inflicted after death). The necropsy team disagreed with this minority
opinion, but included it in the necropsy report anyway. The necropsy team lead said that there
was no shark with teeth spacing so wide as to cause the "parallel marks which form the
diagonal pattern" found on the carcass, and that no shark could have caused wounds in such an
"even patch."

Issue 7: NMFS did not have a nationally consistent and transparent process for distinguishing serious
from non-serious injuries at the time it implemented the February /6, 2006, temporary rule. NMFS
applied criteria contained in a 2005 NMFS publication to adjudge that the right whale calfs
entanglement-related injuries in the case at hand constituted a sufficiently "serious injury" to
justify the application of 50 C.F.R. § 229.32(g)( I) to close the Southeast U.S. Restricted Area to
gillnet fishing. 34 This was only one of several sets of criteria that NMFS has used over the years
for distinguishing serious from non-serious injuries. Since this incident, however, NMFS has
issued a formal Policy Directive and an associated Procedural Directive for distinguishing
serious from non-serious injuries of marine mammals, which is to be used to evaluate all
injuries sustained by marine mammals from January 27, 20 12 onward. (It appears that the calfs
entanglement-related injuries in the case at hand would be adjudged a serious injury under all
the criteria we discovered, including the criteria currently in effect.)

Issue 8: The right whale calfs injuries were reported to be from gil/net mesh size ofmore than six
inches, which is not used by the whiting fishery, which NMFS shut down as a result ofthe
entanglement NMFS tried to steer discussions away from mesh size. These statements are true, but
they have no bearing on the case at hand. 50 C.F.R. § 229.32(g)( I) authorized NMFS to close
the Southeast U.S. Restricted Area to all gillnet gear if any (legal) gillnet gear caused an
entanglement-related serious injury and/or death of a right whale there. NMFS steered
discussions away from mesh size because mesh size did not matter, given that the calf was
found to have been entangled in legal gillnet gear. It does not appear, however, that NMFS
formally explained this point (i.e., that mesh size was irrelevant to the implementation of the
temporary rule) until it published its final rule in June 25, 2007.

Issue 9: The NMFS staffscientist who analyzed the current and drift patterns to determine the
geographical origin ofthe whale carcass said he would not testify to its having originated in the
Southeast U.S. Restricted Area. This statement is true, but it has no bearing on the case at hand.
The NMFS scientist made this comment because there was a remote possibility that the right
whale calf became entangled and/or died in the Florida Keys. However, he said his "gut feeling"
was that the calf became entangled and died within the Southeast U.S. Restricted Area. Other

34
     Cole, T.V.N.; Hartley, D.L.; Merrick, R.L. 2005. Mortality and serious injury determinations for large whale
     stocks along the eastern seaboard of the United States, 1999-2003. U.S. Dep. Commer., Northeast Fish. Sci. Cent
     Ref. Doc. 05-08; 20 p.
                                                                                                 IS


scientists on the email chain agreed with his assessment that the calf became entangled and died
in the Southeast U.S. Restricted Area because right whales and their calves are known to stay
close to shore and not to travel so far south. Aerial images of the calf and its mother supplied
by the New England Aquarium establish that the calf was repeatedly observed in the Southeast
U.S. Restricted Area in the weeks preceding its death; its carcass was also found there.

Issue I0: NMFS knew fishermen were using illegal gear to target sharks and possibly provided wrong
information to these fishermen to fish improperly. We found that NMFS knew that fishermen were
using 4 7/8 inch mesh size gillnet gear to target sharks in the Southeast U.S. Restricted Area,
but this was permitted under the ALWTRP regulations in effect at the time. Based on our
review of the investigative case records, we also found that NMFS' Office of Law Enforcement
(OLE) investigated but could not substantiate the allegation that an illegal fishing operation
caused the calfs entanglement and death. We interviewed the NMFS official who allegedly
provided incorrect instructions to fishermen. He told us that the discussions he had had with
fishermen regarding the use of shark gillnet gear (more than five inch mesh size) concerned the
part of the Southeast U.S. Observer Area that was outside the Southeast U.S. Restricted Area;
accordingly, the instructions he provided would have been accurate there.
